Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 1 of 49 PageID 4238

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
MICHAEL WAYNE SHELLITO,
Petitioner,
vs.

Case No. 3:18-cv-868-J-39JRK

SECRETARY, FLORIDA DEPARTMENT
OF CORRECTIONS, et al.,
Respondents.
ORDER
I.

INTRODUCTION

Petitioner Michael Wayne Shellito is serving a term of life
in prison without the possibility of parole for the offense of
first degree murder.1
U.S.C.

§

2254

Petition for Writ of Habeas Corpus Under 28

(Petition)

(Doc.

1).

Through

counsel,

he

is

challenging his state court (Duval County) conviction for murder.
Respondents filed State’s Answer in Response to Order to Show Cause
(Response) (Doc. 13).2

Petitioner countered with his Reply to

Response to Petition for Writ of Habeas Corpus (Reply) (Doc. 16).
The Florida Supreme Court vacated Petitioner’s sentence of death
and remanded for a new penalty phase proceeding. (Doc. 13-15 at
31-32). Petitioner is now serving a sentence of life without the
possibility of parole. Petition at 2.
1

Respondents provided an Index to Exhibits (Doc. 13 at 66-67) with
exhibits. In this opinion, the Court references the page numbers
2

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 2 of 49 PageID 4239

II.
“In

a

habeas

EVIDENTIARY HEARING

corpus

proceeding,

the

burden

is

on

the

petitioner to establish the need for an evidentiary hearing.”
Jones v. Sec’y, Fla. Dep’t of Corr., 834 F.3d 1299, 1318 (11th
Cir. 2016) (citations omitted), cert. denied, 137 S. Ct. 2245
(2017).

See Chavez v. Sec'y, Fla. Dep't of Corr., 647 F.3d 1057,

1060 (11th Cir. 2011) (opining a petitioner bears the burden of
establishing the need for an evidentiary hearing with more than
speculative and inconcrete claims of need), cert. denied, 565 U.S.
1120 (2012); Dickson v. Wainwright, 683 F.2d 348, 351 (11th Cir.
1982) (same).

A petitioner must make a specific factual proffer

or proffer evidence that, if true, would provide entitlement to
relief.

Jones, 834 F.3d at 1319 (citations omitted).

allegations will not suffice.

Conclusory

Id.

In this case, the pertinent facts are fully developed in this
record or the record otherwise precludes habeas relief;3 therefore,
the Court can "adequately assess [Petitioner's] claim[s] without
further factual development," Turner v. Crosby, 339 F.3d 1247,
1275

(11th

Cir.

2003),

cert.

denied,

541

U.S.

1034

(2004).

assigned by the electronic filing system.
The Court notes Petitioner received a postconviction evidentiary
hearing in state court and was represented by counsel in that
proceeding.
3

2

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 3 of 49 PageID 4240

Petitioner has not met his burden as the record refutes the
asserted factual allegations or otherwise precludes habeas relief.
Thus, the Court finds Petitioner is not entitled to an evidentiary
hearing.

Schriro v. Landrigan, 550 U.S. 465, 474 (2007).
III.

PETITION

Petitioner lists three grounds for habeas relief:
GROUND ONE: The State withheld evidence which
was material and exculpatory in nature and/or
presented false evidence in violation of Mr.
Shellito’s Constitutional rights.
GROUND TWO:
Mr. Shellito was denied the
effective assistance of counsel at the guilt
phase of the capital proceedings, in violation
of the Sixth, Eighth and Fourteenth Amendments
to the United States Constitution.4
GROUND THREE:
Mr. Shellito was absent from
critical stages of the trial in violation of
his Fifth, Sixth, Eighth, and Fourteenth
Amendments to the United States Constitution.
Appellate Counsel’s failure to raise this
claim was deficient performance which denied
Mr. Shellito effective assistance of counsel
on direct appeal.
Petition at 16, 22, 33.

In ground two, Petitioner points to alleged deficiencies in
counsel’s performance: (1) failure to conduct an adequate voir
dire/jury selection; (2) failure to present testimony from the
defense investigator and additional testimony from Detective
Hinson implicating Stephen Gill; (3) failure to present a voluntary
intoxication defense; and (4) opening the door to Ms. Teresa
Ritzer’s highly prejudicial testimony. Petition at 22-32.
3
4

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 4 of 49 PageID 4241

Petitioner asks that his judgment and sentence be reversed.
Id. at 37.

He contends habeas relief is warranted based on his

expressed grounds for relief.
IV.

Reply at 14.

HABEAS REVIEW

In this case, Petitioner claims he is detained “in violation
of the Constitution or laws or treaties of the United States.”
U.S.C. § 2241(c)(3).

28

The Court recognizes its authority to award

habeas corpus relief to state prisoners “is limited-by both statute
and Supreme Court precedent.”

Knight v. Fla. Dep’t of Corr., 936

F.3d 1322, 1330 (11th Cir. 2019), petition for cert. filed, (U.S.
Apr. 20, 2019) (No. 19-8341).

The Antiterrorism and Effective

Death Penalty Act (AEDPA) governs a state prisoner's federal
petition for habeas corpus and “prescribes a deferential framework
for evaluating issues previously decided in state court[,]” Sealey
v. Warden, Ga. Diagnostic Prison, 954 F.3d 1338, 1354 (11th Cir.
2020) (citation omitted), limiting a federal court’s authority to
award habeas relief.
Ct.

504,

506

(2019)

See 28 U.S.C. § 2254; Shoop v. Hill, 139 S.
(per

curiam)

(recognizing

AEDPA

imposes

“important limitations on the power of federal courts to overturn
the judgments of state courts in criminal cases").

As such,

federal courts may not grant habeas relief unless one of the
claims:

"(1)'was

contrary

to,

or

involved

an

unreasonable

application of, clearly established Federal law, as determined by
4

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 5 of 49 PageID 4242

the Supreme Court of the United States,' or (2) 'was based on an
unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.' 28 U.S.C. § 2254(d)."
Nance v. Warden, Ga. Diagnostic Prison, 922 F.3d 1298, 1300-1301
(11th Cir. 2019), cert. denied, 140 S. Ct. 2520 (2020).
In Knight, the Eleventh Circuit explained:
A decision is “contrary to” clearly
established federal law “if the state court
arrives at a conclusion opposite to that
reached by [the Supreme] Court on a question
of law or if the state court decides a case
differently than [the Supreme] Court has on a
set of materially indistinguishable facts.”
Williams [v. Taylor, 529 U.S. 362 (2000)] at
413, 120 S. Ct. 1495. A state court decision
involves an unreasonable application of
federal law “if the state court identifies the
correct governing legal principle from [the
Supreme] Court’s decisions but unreasonably
applies that principle to the facts of the
prisoner’s case.” Id. To justify issuance of
the writ under the “unreasonable application”
clause, the state court’s application of
Supreme Court precedent must be more than just
wrong in the eyes of the federal court; it
“must
be
‘objectively
unreasonable.’”
Virginia v. LeBlanc, ––– U.S. ––––, 137 S. Ct.
1726, 1728, 198 L.Ed.2d 186 (2017)(quoting
Woods v. Donald, ––– U.S. –––, 135 S. Ct. 1372,
1376, 191 L.Ed.2d 464 (2015)); see also Bell
v. Cone, 535 U.S. 685, 694, 122 S. Ct. 1843,
152 L.Ed.2d 914 (2002) (explaining that “an
unreasonable application is different from an
incorrect one.”).
Knight, 936 F.3d at 1330–31.

5

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 6 of 49 PageID 4243

To

obtain

habeas

relief,

the

state

court

decision

must

unquestionably conflict with Supreme Court precedent, not dicta.
Harrington v. Richter, 562 U.S. 86, 102 (2011).

If some fair-

minded jurists could agree with the lower court's decision, habeas
relief must be denied.

Meders v. Warden, Ga. Diagnostic Prison,

911 F.3d 1335, 1351 (11th Cir.), cert. denied, 140 S. Ct. 394
(2019).

Therefore, unless the petitioner shows the state-court's

ruling was so lacking in justification that there was error well
understood and comprehended in existing law beyond any possibility
for fair-minded disagreement, there is no entitlement to habeas
relief.

Burt v. Titlow, 571 U.S. 12, 19-20 (2013).

This Court must accept that a state court's finding of fact,
whether a state trial court or appellate court, is entitled to a
presumption of correctness under 28 U.S.C. § 2254(e)(1).

“The

state court’s factual determinations are presumed correct, absent
clear and convincing evidence to the contrary.”
at 1354 (quoting 28 U.S.C. § 2254(e)(1)).

Sealey, 954 F.3d

This presumption of

correctness, however, applies only to findings of fact, not mixed
determinations of law and fact.

Brannan v. GDCP Warden, 541 F.

App'x 901, 903-904 (11th Cir. 2013) (per curiam) (recognizing the
distinction between a pure question of fact from a mixed question
of law and fact), cert. denied, 573 U.S. 906 (2014).

6

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 7 of 49 PageID 4244

Where
rejecting

there
a

has

federal

been

one

claim

reasoned

followed

by

state
an

court

judgment

unexplained

order

upholding that judgement, federal habeas courts employ a "look
through" presumption: "the federal court should 'look through' the
unexplained decision to the last related state-court decision that
does provide a relevant rationale. It should then presume that the
unexplained decision adopted the same reasoning."

Wilson v.

Sellers, 138 S. Ct. 1188, 1192 (2018) (Wilson).
The reviewing federal court’s habeas corpus consideration of
a petition under AEDPA is a guard against extreme malfunctions in
the state criminal justice systems, not a mechanism for ordinary
error correction.

Richter, 562 U.S. at 102-103 (citation and

quotation marks omitted).

As noted in Sealey, 954 F.3d at 1354

(citations omitted), when reviewing whether there has been an
unreasonable

application

‘unreasonable,’

which

of
is

federal
more

law,
than

“[t]he
simply

key

word

is

incorrect.”

Consequently, state-court judgments will not easily be set aside
due to the applicability of the highly deferential AEDPA standard
that is intentionally difficult to meet.
at 102.

See Richter, 562 U.S.

Although a high hurdle, this high standard does not impose

a complete bar to issuing a writ, but it severely limits those
occasions to those "where there is no possibility fairminded

7

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 8 of 49 PageID 4245

jurists could disagree that the state court's decision conflicts"
with Supreme Court precedent.
V.

Id.

INEFFECTIVE ASSISTANCE OF COUNSEL

Petitioner raises claims of both ineffective assistance of
trial counsel and ineffective assistance of appellate counsel.

To

prevail on a Sixth Amendment claim of ineffective assistance of
trial counsel, he must satisfy the two-pronged test set forth in
Strickland v. Washington, 466 U.S. 668, 688 (1984), requiring that
he show both deficient performance (counsel's representation fell
below
(there

an
is

objective
a

standard

reasonable

of

reasonableness)

probability

that,

but

and

prejudice

for

counsel's

unprofessional errors, the result of the proceeding would have
been different).

See Brewster v. Hetzel, 913 F.3d 1042, 1051-52

(11th Cir. 2019) (reviewing court may begin with either component).
The two-part

Strickland standard

applies to Petitioner’s

claim of ineffective assistance of appellate counsel as well:
An ineffective assistance of appellate
counsel claim is “governed by the same
standards applied to trial counsel under
Strickland.” Brooks v. Comm’r, Ala. Dep’t of
Corr., 719 F.3d 1292, 1300 (11th Cir. 2013)
(internal quotation marks omitted). To show a
meritorious
Sixth
Amendment
claim
of
ineffective assistance of appellate counsel,
a petitioner must demonstrate (1) deficient
performance, indicating that the attorney
failed to function as required by the Sixth
Amendment; and (2) that counsel’s deficient

8

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 9 of 49 PageID 4246

performance
prejudiced
the
petitioner.
Strickland, 466 U.S. at 687, 104 S. Ct. 2052.
“Under the first prong, [the petitioner]
must show that his direct appellate counsel’s
performance ‘fell below an objective standard
of reasonableness.’” Brooks, 719 F.3d at 1300
(quoting Strickland, 466 U.S. at 688, 104 S.
Ct. 2052). There exists “a strong presumption
that counsel’s conduct falls within the wide
range of reasonable professional assistance.”
Strickland, 466 U.S. at 689, 104 S. Ct. 2052.
Further, “[a]ppellate counsel has no duty to
raise every non-frivolous issue and may
reasonably
weed
out
weaker
(albeit
meritorious)
arguments.”
Overstreet
v.
Warden, 811 F.3d 1283, 1287 (11th Cir. 2016).
“Under
Strickland’s
second
prong,
[the
petitioner] must show that there ‘is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the
proceeding would have been different.’ ”
Brooks, 719 F.3d at 1300 (quoting Strickland,
466 U.S. at 694, 104 S. Ct. 2052). “A
reasonable probability is a probability
sufficient to undermine confidence in the
outcome.”
Id. (internal quotation marks
omitted).
“‘The
standards
created
by
Strickland and § 2254(d) are both highly
deferential, and when the two apply in tandem,
review is doubly so.’” Overstreet, 811 F.3d at
1287 (quoting Harrington v. Richter, 562 U.S.
86, 105, 131 S. Ct. 770, 178 L.Ed.2d 624
(2011)). Under this “double deference,” then,
“the question becomes whether there is any
reasonable argument that counsel satisfied
Strickland’s deferential standard.” Evans v.
Sec’y, Fla. Dep’t of Corr., 699 F.3d 1249,
1268 (11th Cir. 2012) (internal quotation
marks omitted).

9

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 10 of 49 PageID 4247

Corales-Carranza v. Sec’y, Fla. Dep’t of Corr., 768 F. App’x 953,
957 (11th Cir. 2019) (per curiam).

See Garcia v. Sec’y, Dep’t of

Corr., No. 5:17-CV-121-OC-39PRL, 2020 WL 708139, at *11 (M.D. Fla.
Feb. 12, 2020) (recognizing the applicability of the two-part
Strickland

standard

to

a

claim

of

ineffective

assistance

of

appellate counsel).
VI.

GROUND ONE

GROUND ONE: The State withheld evidence which
was material and exculpatory in nature and/or
presented false evidence in violation of Mr.
Shellito’s Constitutional rights.
In support of ground one, Petitioner asserts the prosecutor
at the state evidentiary hearing conceded that the state’s witness,
Richard Bays, testified falsely.

Petition at 16.

Petitioner

submits that Bays’ testimony was false in two respects: (1) that
he was facing life in prison due to his status as a habitual
offender,
testimony.

and
Id.

(2)

he

was

not

receiving

any

benefit

for

his

Petitioner argues Bays received a benefit for his

testimony because the day before Bays testified, the day of jury
selection, the prosecutor withdrew the notice to prosecute Bays as
a career criminal.

Id. at 16-17.

Petitioner’s trial counsel was

unaware that the notice had been withdrawn.
Petitioner claims:

Id. at 17.

“[a]t Mr. Shellito’s capital trial Bays

testified that he was facing a life sentence on his pending charges

10

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 11 of 49 PageID 4248

(T. 434).

He was not.

Prosecutor Plotkin who knew that Bays was

testifying falsely sat mute.”

Petition at 19.

Petitioner also

claims Bays knew he would receive a benefit because he knew that
if he testified truthfully his testimony would be taken into
consideration.

Id.

Indeed, a week after Petitioner’s sentencing,

Bays entered a plea to accessory after the fact and received a
sentence of thirteen months in jail, which meant he was released
upon his plea.

Id.

Petitioner argues Bays offered critical

testimony because he was the only witness who placed the murder
weapon in Petitioner’s hands before the murder and Bays testified
Petitioner admitted to the crime.

Id. at 20.

Respondents construe Petitioner’s claim as a Giglio5 claim
asserting the prosecutor failed to correct false testimony that
Bays

was

testimony.

facing

life

and

Response at 17.

not

receiving

any

benefit

for

his

Respondents concede exhaustion as

Petitioner raised this issue in ground four of his postconviction
motion and then appealed the denial of the claim.

Id.

It is important to recognize Petitioner’s Brady/Giglio claim
was vetted at the state evidentiary hearing.6

After hearing the

Giglio v. United States, 405 U.S. 150 (1972) (to establish a
Giglio violation, a defendant must demonstrate the testimony was
false, the prosecutor knew the testimony was false, and the
statement was material).
5

6

Brady v. Maryland, 373 U.S. 83 (1963) (to successfully sustain a
11

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 12 of 49 PageID 4249

testimony and making credibility determinations, the trial court
denied the claim in its Amended Order Denying Defendant’s Motions
for Post Conviction Relief.
Petitioner

alleged

the

(Doc. 13-9).
state

The trial court noted

committed

its

violation

by

withholding material and exculpatory evidence, and/or presented
misleading evidence, which rendered his counsel’s performance
ineffective.

Id. at 20.

The court set forth what must be

demonstrated to successfully prevail on a Brady claim.

Id. at 21.

The court summarized the evidentiary hearing testimony of former
Assistant State Attorney Jay Plotkin.

Id.

Notably, Mr. Plotkin

testified he did file the Notice of Withdrawal of Habitual Violent
Felony

Offender

as

to

Mr.

Petitioner’s trial started.

Bays
Id.

on

July

17,

1995,

the

day

Mr. Plotkin attested he sent the

notice to defense counsel and said he withdrew the notice because
he did not consider Mr. Bays to be qualified for the habitual
offender status and the original notice was filed in error.
The

trial

court

also

focused

on

the

fact

that

Mr.

Id.

Plotkin

testified: “no agreements were ever made with Mr. Bays regarding
HVFO status and his testimony, and the terms of Mr. Bays’ plea

Brady claim, a defendant must show favorable evidence – either
exculpatory or impeaching, was willfully or inadvertently
suppressed by the state, and the evidence was material, resulting
in prejudice to defendant).
12

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 13 of 49 PageID 4250

agreement were not worked out until subsequent to the Defendant’s
case.”

Id.

Of import, the trial court also opined, even assuming arguendo
there had been an agreement between the prosecutor and Mr. Bays
concerning

an

exchange

of

testimony

for

not

pursuing

habitualization, Petitioner failed to establish prejudice because
Mr. Bays testimony mirrored others’ testimony, as well as other
evidence presented at trial.
court

found

Petitioner

Id. at 21-22.

failed

to

As such, the trial

establish

a

reasonable

probability that the outcome of the trial would have been different
had an agreement been made and known, as alleged.

Id. at 22.

On appeal of the denial of the postconviction motion, in
Argument III of Appellant’s Brief, Petitioner raised the following
issue:
The circuit court erred in denying Mr.
Shellito’s claim that he was deprived of his
rights to due process under the Fourteenth
Amendment to the United States Constitution as
well as his rights under Fifth, Sixth, and
Eighth Amendments, because the state withheld
evidence which was material and exculpatory in
nature and/or presented misleading evidence.
(Doc. 13-10 at 6).
Of import, the brief included citation to Napue v. Illinois,
360 U.S. 264, 265-66, 69-70 (1959) concerning a Brady/Giglio claim
asserting

failure

to

reveal

a

13

promise

for

consideration

for

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 14 of 49 PageID 4251

testimony and an asserted Giglio violation for failure of the
state, having knowledge of the promise, to correct a witnesses’
false

testimony.

(Doc.

13-10

at

88

n.48).

Also

cited

as

authority is United States v. Bagley, 473 U.S. 667, 683 (1985)
(recognizing the possibility of reward strengthens the incentive
to testify falsely).

Petitioner argued a Giglio violation (false

testimony, prosecutor knew it to be false, and the materiality of
the testimony).

(Doc. 13-10 at 89).

Asserting materiality of

Bays’ testimony, Petitioner said Bays was the only person who
placed the gun in Petitioner’s hands before the murder,
additionally, Petitioner admitted the shooting to Bays.

and

Id. at

89-90.
In response, the state, in its Answer Brief of Appellee,
argued Petitioner failed to allege a Giglio violation below,
presenting just a Brady violation.

(Doc. 13-11 at 86).

Assuming

Petitioner presented both Brady and Giglio claims, the state argued
the trial court’s decision merited affirmance based on recordsupported sound reasoning.
belief

of

a

insufficient

witness
under

Alternatively, because the subjective

that

both

a

prosecutor

Brady

and

would

Giglio,

the

help
state

him

is

argued

Petitioner also failed to meet his burden to prove the prosecutor
offered something to induce Bays’ testimony.

Id. at 87-89.

Furthermore, the state argued the trial court accredited the
14

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 15 of 49 PageID 4252

prosecutor’s testimony denying any promises to Bays based on
competent,

substantial

evidence;

therefore,

there

can

be

no

substitution of judgment on the credibility issue and the result
remains the same.
that

even

agreement

if
or

Id. at 89-90.

Bays

had

reduced

been

Finally, the state submitted

subject

exposure,

the

to

cross-examination

impact

would

have

on

been

negligible because Bays’ testimony that he faced a life sentence
would have remained unchanged as he was still facing a life
sentence although the habitual offender notification had been
withdrawn and Bays’ testimony proved consistent as Bays cooperated
from the beginning.
In

its

Id. at 90.

reasoned

decision,

the

Supreme

Court

of

Florida

expressly affirmed the trial court’s decision denying relief as to
the guilt phase, rejecting both the Brady and Giglio claims.
13-15 at 26-28, 31).

(Doc.

Acknowledging the claims presented mixed

questions of law and fact, the Supreme Court of Florida deferred
to the lower court’s findings of fact, finding they were supported
by competent, substantial evidence.
presentation of

Id. at 26-28.

Without the

favorable evidence, the Supreme Court of Florida

found a failure to establish a Brady violation (“Contrary to
Shellito’s

assertion,

the

record

reveals

that

there

was

no

agreement entered into between Ricky Bays and the State whereby
Bays’ testimony in Shellito’s murder trial was agreed to be offered
15

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 16 of 49 PageID 4253

in consideration for the State’s disposition of Bays’ armed robbery
case.”).

Id. at 27 (footnote omitted).

The Florida Supreme Court, with regard to the Giglio claim,
noted that Bays testified he understood he was facing a maximum
possible penalty of life imprisonment in his armed robbery case,
he was not promised anything for his testimony by the prosecutor
or the police, and he understood he could receive a fifteen-year
minimum mandatory sentence.

Id. at 28.

The Florida Supreme Court

found there was no falsity in the statement because there was no
evidence of an agreement for the withdrawal of the habitual violent
felony

offender

notice,

or

any

consideration for Bays’ testimony.

other
Id.

benefit,

given

in

The Supreme Court also

took note that Bays never mentioned habitual offender status during
his testimony, and his testimony that he was facing life in prison
was true even without the habitual offender status as Bays was
facing a life sentence for armed robbery (armed robbery is a felony
punishable by life).

Id. at 29.

The court agreed that Bays

testified falsely at trial when he said he was facing a fifteenyear mandatory minimum; however, as this statement was not material
(there was no reasonable likelihood that this false testimony could
have affected the judgment of the jury), the court concluded there
was no Giglio violation.

(Doc. 13-15 at 29, relying on Guzman v.

16

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 17 of 49 PageID 4254

State, 868 So.2d 498, 506 (Fla. 2003) (per curiam) (citing United
States v. Agurs, 427 U.S. 97, 103 (1976))).
Petitioner

has

not

rebutted

with

clear

and

convincing

evidence the state court’s determination that there was no promise
or agreement entered into between Bays and the state whereby Bays’
testimony in Petitioner’s murder case was agreed to be offered in
consideration for the state’s disposition in Bays’ armed robbery
case.

Notably, the only agreement occurred after the disposition

of Petitioner’s case.
Brady violation.

Thus, there is no favorable evidence of a

Moreover, as there was no materially false

testimony, there is no Giglio violation.

Ultimately, Bays faced

life imprisonment whether he was tried as a habitual violent felony
offender or just tried for armed robbery.

Thus, the material

testimony is not considered to be false and no prejudice ensued.
There was competent and substantial evidence to support these
state-court determinations.
Jay Plotkin, prosecutor).

(Doc. 13-8 at 280-362, testimony of
Mr. Plotkin testified “[t]here was no

understanding in this case specifically as to Mr. Bays’ sentence.”
Id. at 299.

Mr. Plotkin noted Mr. Bays “was cooperative from the

beginning.”

Id. at 324.

was

a

cooperating

witness

interaction with him).
if

he

testified

See id. at 356 (record shows Mr. Bays
long

before

Mr.

Plotkin

had

any

Mr. Plotkin did say, “Petitioner knew that

truthfully

that
17

would

be

taken

into

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 18 of 49 PageID 4255

consideration[,]” id. at 324, but Mr. Plotkin insisted there was
no deal so Mr. Bays could truthfully answer the question.
325.

Id. at

Finally, Mr. Plotkin testified the statutory maximum for

armed robbery with a firearm is life.

Id. at 362.

The record shows Bays testified at trial that upon his arrest,
he was taken to the Police Memorial Building and he gave a sworn
statement to the police concerning what Petitioner told Bays about
the murder.

(Doc. 13-2 at 343-44).

Mr. Bays said he was not

threatened in any way when he gave his statement.

Id. at 344.

When asked what his understanding of his maximum possible penalty,
he responded life, and he had not entered a plea to date.

Id.

He

also said he had not been promised anything for his testimony by
the State Attorney’s Office or by the police.

Id.

stated he had no idea what his sentence would be.

Id. at 344-45.

On cross-examination, defense counsel asked:

Mr. Bays

“[n]ow, the

maximum sentence, sir, that you’re looking at if you’re convicted
for armed robbery is life, right?”
in the affirmative.

Id.

Id. at 363.

Mr. Bays responded

Defense counsel asked: “[a]nd as you

understand it you could also receive in that a 15 year minimum
mandatory

sentence,

affirmatively.

Id.

right?”

Id.

Mr.

Bays

responded

Clearly, no question was raised as to whether

Petitioner was facing a habitual felony offender sentence.

18

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 19 of 49 PageID 4256

Whether or not Mr. Plotkin understood the law when he withdrew
the

habitual

consequence.

offender

notice

for

See Response at 25.

Mr.

Bays

is

not

of

any

The state court credited Mr.

Plotkin’s testimony that there was no agreement with Mr. Bays prior
to

his

testimony,

and

the

record

shows

Mr.

Bays

had

been

consistently cooperative with the police since his arrest, even
before any contact with Mr. Plotkin, thereby exhibiting no evidence
of recent fabrication or falsity in Bays’ trial testimony based on
some sort of hidden agreement or deal with the prosecutor.
Given the testimony of Mr. Plotkin and the other evidence,
there was no deal, and the fact that Mr. Bays, upon arrest, was
immediately a cooperating witness, Petitioner “has not come close
to rebutting by clear and convincing evidence the presumption of
correctness that we must accord the state court’s findings.”

Hill

v. Johnson, 210 F.3d 481, 486 (5th Cir. 2000) (concluding there is
no Supreme Court decision supporting an assertion that subjective
beliefs of witnesses regarding the possibility of future favorable
treatment are sufficient to trigger a state’s duty to disclose
under Brady and Giglio or gives the reviewing court cause to
believe

the

state

court’s

conclusions

are

the

result

of

an

unreasonable application of the facts to the law), cert. denied,
532 U.S. 1039 (2001).

Indeed, a nebulous expectation of help by

a witness is simply not enough to support a Brady/Giglio claim.
19

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 20 of 49 PageID 4257

Here there was no evidence of a side deal regarding the future
prosecution of Mr. Bays, nor was there evidence of the prosecutor
concealing such a promise from the jury.

See Williams v. Williams,

232 F.Supp.3d 1318, 1324 (S.D. Ga. Feb. 8, 2017) (district court
adopting report and recommendation of magistrate judge) (finding
a leniency deal with the witness was one of sufficient impact so
that failure to disclose was critically important).

Of course,

any agreements, understandings, and promises must be disclosed,
Haber v. Wainwright, 756 F.2d 1520, 1524 (11th Cir. 1985), and
“[e]ven partly formed understandings, agreements, and side-deals”
are to be disclosed.
omitted).

Williams, 232 F.Supp.3d at 1325 (citation

As such, verbal assurances of non-prosecution, police

promises to a prosecution witness that the police would talk to
the prosecutor on behalf of the witness, and even a promise to
write a letter to the parole board on behalf of a state’s witness
may constitute just such a side-deal or agreement that must be
disclosed.
Apparently, the trial court credited the testimony of Mr.
Plotkin that no agreements were made with Mr. Bays regarding his
habitual offender status and his testimony (Doc. 13-9 at 21), and
there was no evidence of “quid pro quo” for Bays’ testimony prior
to or during the Petitioner’s trial.

Rodriguez v. Sec’y, Fla.

Dep’t of Corr., 756 F.3d 1277, 1307 (11th Cir. 2014), cert. denied,
20

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 21 of 49 PageID 4258

575 U.S. 939 (2015).

Given this Court’s deference to the trial

court’s factual finding that the prosecutor’s testimony was not
false concerning whether or not the prosecutor and Mr. Bays struck
a deal, Petitioner’s Brady claim is foreclosed.
Of significance, it was not false testimony that Bays stated
he was facing a maximum of life imprisonment for armed robbery.
As this was an accurate statement, it could not violate the Giglio
rule.7

Hammond v. Hall, 586 F.3d 1289, 1306-1307 (11th Cir. 2009)

(citation omitted) (“A Giglio claim involves an aggravated type of
Brady violation in which the suppression of evidence enabled the
prosecutor to put before the jury what he knew was false or
misleading testimony[.]”), cert. denied, 562 U.S. 1145 (2011).
Although Bays testified falsely he was facing a fifteen-year
mandatory minimum, the statement was not material (there was no
reasonable

likelihood

that

this

false

testimony

could

have

affected the judgment of the jury); therefore, there was no Giglio
violation.8

Even assuming there was a Giglio violation (a more

Petitioner claims prosecutor Plotkin knew Bays was testifying
falsely and sat mute when Bays said he was facing a life sentence
on his pending charges. Petition at 19.
7

Apparently, Bays did not know his trial testimony was false
concerning his facing a fifteen-year minimum mandatory term as the
state’s notice of withdrawal of the habitual violent felony
offender notice had just been filed by the state and not yet
received by the defense.
8

21

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 22 of 49 PageID 4259

defense-friendly burden),9 Petitioner has failed to satisfy the
standard set forth in Brecht v. Abrahamson, 507 U.S. 619, 637
(1993) (internal quotation marks omitted), as Petitioner failed to
demonstrate any violation “had substantial and injurious effect or
influence in determining the jury’s verdict[.]”

Moreover, even

assuming Bays had been subjected to cross-examination on agreement
or reduced exposure, the impact would have been negligible because
Bays’ testimony that he faced a life sentence would have remained
unchanged and his testimony proved consistent as Bays cooperated
from the outset, prior to any discussions with the prosecutor.
This Court presumes the factual determinations of the state
court are correct.

Petitioner has failed to rebut the presumption

of correctness with clear and convincing evidence.
2254(e)(1).

28 U.S.C. §

Also, the Court extends deference to the state

court’s credibility determinations.

After hearing testimony, the

trial

determination,

court

made

a

credibility

Plotkin’s testimony to be credible.

finding

Mr.

“Federal habeas courts have

‘no license to redetermine credibility of witnesses whose demeanor

It is important to recognize that Brady requires a showing the
result would have been different, whereas Giglio requires a showing
the result could have been different without the use of perjured
testimony.
Petitioner claims prosecutor Plotkin knew Bays was
testifying falsely and sat mute when Bays testified there were no
promises made by the prosecution in exchange for Bays’ testimony
and Bays was facing a life sentence on his pending charges.
Petition at 19.
9

22

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 23 of 49 PageID 4260

has been observed by the state trial court, but not by them.’”
Consalvo v. Sec’y for Dep’t of Corr., 664 F.3d 842, 845 (11th Cir.
2011) (per curiam) (quoting Marshall v. Lonberger, 459 U.S. 422,
434 (1983)), cert. denied, 568 U.S. 849 (2012).
The Court concludes the Florida Supreme Court’s decision
affirming the trial court’s decision on the guilt phase is not
contrary to, nor an unreasonable application of controlling United
States

Supreme

Court

precedent.

As

Petitioner

has

not

demonstrated that the adjudication of the state court was contrary
to or an unreasonable application of any clearly established
federal law as determined by the United States Supreme Court or an
unreasonable

determination

of

the

facts,

Petitioner

is

not

entitled to habeas relief on this ground.
VII.

GROUND TWO

GROUND TWO:
Mr. Shellito was denied the
effective assistance of counsel at the guilt
phase of the capital proceedings, in violation
of the Sixth, Eighth and Fourteenth Amendments
to the United States Constitution.
Petitioner claims Refik Eler, Petitioner’s trial counsel,
performed deficiently during voir dire and the guilt stages of the
proceedings.

In

a

streaming

counsel’s alleged deficiencies.

fashion,

Petitioner

presents

The state has responded to these

allegations and broken the response into four distinct categories.
For ease of the reader, the Court will do the same:
23

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 24 of 49 PageID 4261

(A) Voir Dire/Jury Selection:
(1) failure to question the potential jurors with regard
to their views on drugs and alcohol abuse as well as
mental health;
(2) failure to attempt to rehabilitate potential jurors
concerning views on the death penalty before agreeing to
strike the potential jurors for cause;
(3) failure to use peremptory challenges against
potential jurors with connections to law enforcement
and/or specialized knowledge of related subjects
(fingerprints, lifesaving, firearms);
(B) Guilt Phase – Sufficient Evidence Implicating Gill:
(1) John Bennett;
(2) Migdalia Shellito and the defense investigator;
(3) Detective Hinson;
(C) Guilt Phase – Voluntary Intoxication Defense;
(D) Guilt Phase – “Opening the Door” to Ms. Teresa Ritzer.
Respondents agree that Petitioner exhausted his state court
remedies with regard to his claim of ineffective assistance of
trial

counsel.

Response

at

29.

Notably,

the

trial

court

conducted an evidentiary hearing on the postconviction motion.
Thus, the claim of ineffective assistance of trial counsel has
been well vetted.
Defense counsel, Mr. Eler, testified at the proceeding.

The

record shows defense counsel was not only experienced, he also had
significant experience in death penalty proceedings.

24

(Doc. 13-6

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 25 of 49 PageID 4262

at 12).

Mr. Eler had been an Assistant State Attorney, prosecuting

criminal cases from 1986-1989.
practice

with

Frank

Tassone,

Id. at 13.
an

He went into private

experienced

criminal

lawyer, and Mr. Eler engaged in criminal defense work.

defense
Id.

Mr.

Eler had 200 jury trials, handled murder cases (some capital
cases), including being second chair in death penalty cases, and
is an adjunct professor of law teaching trial advocacy.
13, 15.

Id. at

Prior to accepting appointment of Petitioner’s case, Mr.

Eler had approximately six years of private practice experience.
Id. at 14.
(A) Voir Dire/Jury Selection
Directing
counsel

its

focused

on

inquiry
the

to

jury

death

selection,

penalty

undertaken and whether it was adequate.

postconviction

qualification

that

was

Given that Petitioner is

no longer facing the death penalty, many of the complaints about
the

adequacy

of

voir

dire

and

jury

selection

are

no

longer

pertinent to this Court’s review (for example, mitigation at the
penalty

phase).

ineffective

The

assistance

trial
of

court

trial

addressed

counsel,

the

denying

claim
relief

of
and

finding Petitioner’s counsel made reasonable tactical decisions or
Petitioner’s claims were merely speculative.
Generally,

Petitioner

complains

his

trial

counsel

“was

completely ineffective in neglecting to remove biased jurors and
25

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 26 of 49 PageID 4263

to attempt rehabilitation of other jurors[.]”

Petition at 24.

While Petitioner acknowledges Eler’s limited time to prepare due
to his appointment date, Petitioner states that the hurried nature
of trial preparation meant some witnesses were never deposed or
spoken to or were deposed shortly before trial, leaving counsel
inadequately prepared.
finding it unsupported.

Id.

The trial court rejected this claim

(Doc. 13-9 at 8-9) (“The Defendant fails

to provide any indication as to the type of information, or any
information for that matter, that he alleges trial counsel could
have discovered through further deposing of these witnesses that
would have in any way been beneficial to his defense and was not
already presented at trial.”).
claim

vague

and

conclusory,

Ultimately, the court found this
failing

to

establish

deficient

performance or prejudice, relying on the Strickland two-pronged
standard.

Id. at 9.

Concerning the claim that counsel performed inadequately by
failing to question potential jurors about their views regarding
drugs, alcohol, and mental illness, the trial court rejected the
claim finding such failure did not render counsel’s performance
deficient because Petitioner made no showing that “an unqualified
juror with a bias or animus towards the mentally ill or those
suffering from drug or alcohol addiction” sat on the jury.

Id.

The trial court highlighted the fact that Mr. Eler, during the
26

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 27 of 49 PageID 4264

evidentiary hearing on postconviction, testified he considered and
rejected using drug or alcohol use as a defense.
at 131).

Id.; (Doc. 13-6

Consistent with this decision, Mr. Eler testified he did

not want to present the blood alcohol toxicology report taken at
the time of Petitioner’s arrest.
At

the

evidentiary

(Doc. 13-6 at 137).

hearing,

the

focus

of

the

questions

concerning mental health were directed to the penalty phase; as
Petitioner

is

no

longer

serving

a

sentence

of

death,

these

questions and responses are not substantially relevant to this
federal proceeding.

Id. at 132-36.

As such, the Court will

direct its focus elsewhere.
On cross-examination at the evidentiary hearing, Mr. Eler
responded to questions concerning his reasons for asking the jurors
about alcohol and drug use and about any of their training in
psychology and psychiatry.

Id. at 176-77.

When asked whether he

would have been more effective asking the jurors more about their
views on drugs, alcohol, and mental illness, and whether they were
sympathetic

to

the

related

ailments

and

illnesses,

Mr.

Eler

responded, in his experience, the venire in Duval County is “not
very sympathetic to that as an excuse and even to an extent
mitigation.”
questioning

Id. at 178.
because

if

He also explained he is careful in his
a

potential

27

juror’s

response

is

too

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 28 of 49 PageID 4265

favorable to the defense, the state will strike the potential
juror.

Id. at 178-79.

Petitioner also raises the matter of counsel’s failure to
attempt to rehabilitate potential jurors concerning views on the
death penalty before agreeing to strike the potential jurors for
cause.

This

claim

has

limited

relevance

at

Petitioner is not serving a sentence of death.

this

stage

as

Nevertheless, it

will be considered to the extent it may still be relevant as to
the

overall

question

of

counsel’s

performance

during

voir

dire/jury selection.
Petitioner complains counsel’s attempts at rehabilitating
potential jurors was insufficient.

Petition at 23.

At the

evidentiary hearing, Mr. Eler explained he would have stipulated
to a strike for cause if it were a potential juror he did not want,
if the juror had work issues and he did not want to upset the juror
or cause the juror to punish Petitioner, if counsel read the
potential juror’s body language and it was not positive for the
defense, and for various other reasons.

(Doc. 13-6 at 179).

Petitioner also claims counsel’s performance was deficient
for failure to use peremptory challenges against potential jurors
with connections to law enforcement and/or specialized knowledge
of

related

subjects

Petition at 23.

(fingerprints,

lifesaving,

firearms).

The jurors in question are Ms. Hill (who practiced
28

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 29 of 49 PageID 4266

as a nurse for five years and took life-saving courses), Mr.
Rutledge
ballistics

(a

security

training),

guard
and

with

Mr.

specialized

Wilson

firearms

and

(who

had

fingerprint

training, including obtaining latent prints).

Id.

Petitioner

also bases this claim on counsel’s failure to determine if these
individuals could disregard their specialized training.

Id.

In response to a question at the evidentiary hearing, counsel
explained it would be to the defense’s advantage to have a juror
with fingerprint training because that juror may discount the
police

efforts

evidence.

because

the

police

(Doc. 13-6 at 180).

failed

to

get

fingerprint

Mr. Eler said Mr. Rutledge, the

security guard, was an attractive juror because he was a young
black male, who may identify with Petitioner, a young male, being
in a bad spot.

Id.

Although there was no specific inquiry

concerning Ms. Hill, Mr. Eler explained, generally, he likes female
jurors because they are more sensitive and open.

Id. at 51.

The trial court rejected the contention that trial counsel
should have used peremptory challenges to exclude these potential
jurors and should have determined if they could disregard their
specialized knowledge or training for deliberations.
at 11-12).

(Doc. 13-9

The court found Petitioner failed to present evidence

that his jury was anything but impartial.

Id. at 11.

The court

highlighted Mr. Eler’s testimony that he communicated with his
29

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 30 of 49 PageID 4267

client throughout jury selection, conferred with his client, and
Petitioner approved of the jury selection.

Id.

The court found

trial counsel’s testimony that he conferred with Petitioner more
credible

and

more

concerning the claim.

persuasive

than

Petitioner’s

allegations

Id.

Of import, the court mentioned there was no questioning
concerning Ms. Hill, but the court found Petitioner failed to
present any evidence showing Ms. Hill’s prior experience as a nurse
in any way affected her ability to render an impartial deliberation
and decision in Petitioner’s case.

Id. at 12.

Finally, based on

all of Mr. Eler’s testimony at the evidentiary hearing, the trial
court found that counsel made a tactical decision not to challenge
“any of these [Mr. Wilson, Ms. Futrell, Mr. Rutledge, and Ms. Hill]
potential jurors.”

Id.

As such, the court found counsel’s

performance was not deficient and Petitioner failed to establish
error on counsel’s part which prejudiced his defense.

Id.

Noting that the trial court found counsel’s decisions during
voir dire were tactical or strategic,10 the Florida Supreme Court,
in addressing the claim of ineffective assistance of counsel during

“An attorney’s actions are sound trial strategy, and thus
effective, if a reasonable attorney could have taken the same
actions.” Harvey v. Warden, Union Correctional Institution, 629
F.3d 1228, 1243 (11th Cir.) (emphasis added), cert. denied, 565
U.S. 1035 (2011).
10

30

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 31 of 49 PageID 4268

voir dire, concluded:

“[b]ecause Shellito has failed to prove

that Eler was deficient during voir dire, we need not address the
prejudice prong.”

(Doc. 13-15 at 11).

The Florida Supreme Court

found Petitioner’s claim that counsel was ineffective for failure
to determine if the prospective jurors could disregard their
specialized training to be speculative.

Id. at 10.

Finally, the

Florida Supreme Court summarily denied Petitioner’s “conclusory
assertion” that Mr. Eler was deficient when he stipulated to
striking for cause certain prospective jurors.

Id. 11 n.4.

Affirming the trial court’s denial of relief as to the guilt phase,
the superior court rejected this ground concerning voir dire/jury
selection.
The
credible

trial
and

court

found

persuasive,

defense
and

the

specifically referenced this finding.

counsel’s
Florida

testimony
Supreme

more
Court

Additionally, for this

Court’s review of Petitioner’s claims of ineffective assistance of
counsel, it is significant that Petitioner had the benefit of
experienced counsel: “[w]hen courts are examining the performance
of an experienced trial counsel, the presumption that his conduct
was reasonable is even stronger.”

Cummings v. Sec’y for Dep’t of

Corr., 588 F.3d 1331, 1364 (11th Cir. 2009) (quoting Chandler v.
United States, 218 F.3d 1305, 1316 (11th Cir. 2000)), cert. denied,
562 U.S. 872 (2010).

The Court has reviewed the evidentiary
31

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 32 of 49 PageID 4269

hearing, and the record clearly demonstrates Petitioner had the
benefit of experienced defense counsel.
In evaluating jury selection claims, a federal court reviews
the underlying claim of ineffective assistance of counsel just
like any other Strickland claim, employing the strong presumption
that trial counsel’s performance was constitutionally adequate.
Fennell v. Sec’y, Fla. Dep’t of Corr., 582 F. App’x 828, 831 (11th
Cir. 2014) (per curiam) (citation omitted), cert. denied, 576 U.S.
1039

(2015).

However,

a

petitioner,

in

the

post-conviction

context, has the additional burden of meeting the actual bias
requirement that Florida employs.

Id. at 832 (citing Carratelli

v. State, 961 So.2d 312, 323 (Fla. 2007)).
Considering this record, including the evidentiary hearing
transcript, the Court finds the record supports the state court’s
findings.
jury.

There is no evidence that a biased juror sat on the

Rogers v. McMullen, 673 F.2d 1185, 1189 (11th Cir. 1982)

(finding

habeas

relief

is

appropriate

if

a

defendant

can

demonstrate that a juror was biased or incompetent), cert. denied,
459 U.S. 1110 (1983).
determination

that

Also, considering the record as whole, the

trial

counsel

was

not

ineffective

is

not

contrary to, or an unreasonable application of Strickland and its
progeny as “the bounds of constitutionally effective assistance of
counsel are very wide.”

Harvey, 629 F.3d at 1243.
32

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 33 of 49 PageID 4270

As

the

state

court

reasonably

determined

the

facts

and

reasonably applied federal law to those facts in rejecting the
claim of ineffective assistance of counsel, Petitioner is not
entitled to habeas relief.
trial court’s decision.

The Florida Supreme Court affirmed the

The state court’s ruling is entitled to

AEDPA deference as its decision is not inconsistent with United
States Supreme Court precedent, and the adjudication of this claim
is not contrary to or an unreasonable application of United States
Supreme Court law or based on an unreasonable determination of the
facts.

Petitioner is not entitled to relief on his claim of

ineffective

assistance

of

counsel

regarding

voir

dire/jury

selection.
(B) Guilt Phase – Sufficient Evidence Implicating Gill
(1) John Bennett; (2) Migdalia Shellito and the defense
investigator; and (3) Detective Hinson.
Petitioner claims his counsel was ineffective because he
failed to “introduce a great deal of evidence that would have
placed serious suspicion on Gill and would have supplied reasonable
doubt as to Mr. Shellito’s involvement in the crime.”
at 25.

Petition

With regard to John Bennett, Petitioner contends his

counsel performed deficiently for failure to bring out the fact
that in his deposition, Mr. Bennett said not only did he hear tires
squealing, he also heard a shot before he saw a silhouette move

33

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 34 of 49 PageID 4271

around the truck and enter the driver’s side of the truck.

Id.

The record shows, at trial, Mr. Bennett did not mention he heard
a shot.
Regarding Migdalia Shellito and her testimony that Gill had
confessed to her that Gill committed the murder of the victim,
Petitioner contends Mr. Eler performed deficiently because he
failed to call the defense’s investigator to testify that Mrs.
Shellito had mentioned Gill’s confession to the investigator three
months

before

Petitioner’s

trial,

especially

after

the

state

called the court clerk to say that Mrs. Shellito never told the
clerk

another

person

confessed

to

the

murder,

although

Mrs.

Shellito said she thought she had told the clerk about Gill’s
confession.

Id. at 25-26.

Finally, Petitioner argues Mr. Eler performed ineffectively
when he did not recall Detective Hinson to testify as to the
statements Gill made to him.

Id. at 27.

When Detective Hinson

was called as the state’s witness, defense counsel tried to examine
the detective about the contents of Mr. Gill’s statements to him,
but these were considered to be hearsay statements.

Id. at 26.

Counsel was just able to elicit that Detective Hinson was concerned
about Gill’s truthfulness.
After recognizing the

Id.
Strickland

two-pronged standard of

review, (Doc. 13-9 at 6), the trial court rejected this claim
34

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 35 of 49 PageID 4272

finding Mr. Bennett was not asked about gunshots and the rest of
his

testimony

testimony.

was

relatively

Id. at 16.

consistent

with

his

deposition

More importantly, as the court noted, Mr.

Eler testified at the evidentiary hearing that he was able to
elicit very beneficial testimony from Mr. Bennett at trial.

Id.

Indeed, upon review of his trial testimony, Mr. Bennett provided
very significant testimony for the defense.
47).

(Doc. 13-2 at 736-

He testified that the silhouette he saw appeared to be coming

from the driver’s side.

Id. at 739-40.

Even on cross examination

by the state, he continued to state that “he would have to be
coming from the driver’s side.”

Id. at 745.

This testimony

bootstrapped the defense as all of the evidence presented at trial
supported the conclusion that Mr. Gill had been the driver of the
truck and Petitioner had been the passenger in the truck, never
the driver.

Of note, in his deposition, Mr. Bennett expressed a

level of uncertainty as to whether the silhouette came from the
driver’s

side

or

the

passenger’s

side

of

the

truck.

Thus,

Bennett’s trial testimony was more certain and beneficial to the
defense.
The

trial

court

found,

“[w]ithout

alleging

more,

the

Defendant has failed to provide any showing that he was prejudiced
by trial counsel’s failure to question Mr. Bennett about hearing
gunshots on the night of the incident.”
35

(Doc. 13-9 at 16).

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 36 of 49 PageID 4273

Without satisfying the prejudice component, Petitioner cannot
prevail on his claim of ineffective assistance of counsel.

See

Reaves v. Sec’y, Fla. Dep’t of Corr., 872 F.3d 1137, 1151 (11th
Cir. 2017), cert. denied, 138 S. Ct. 2681 (2018).
The trial court, after reviewing Petitioner’s assertion that
counsel should have called the defense’s investigator to testify
at trial, concluded counsel’s performance was not deficient as the
decision of counsel was “tactical in nature.”

(Doc. 13-9 at 17).

Counsel testified had he listed his investigator as a witness, the
investigator would have been subject to deposition and crossexamination by the state, an examination defense counsel would
absolutely want to avoid, reasonably fearing dreadful consequences
for the defense.
Finally,

Id.

regarding

the

assertion

that

counsel

performed

deficiently for failure to re-call Detective Hinson to testify
once Stephen Gill pled the Fifth and became unavailable as a
witness, the trial court noted that defense counsel testified he
was aware there would be the hurdle to overcome of “various hearsay
objections[,]” but counsel was able to gain the substance of the
needed information through his examination of Detective Hinson on
cross-examination, and significantly, counsel was unaware of any
confession by Gill to Hinson.

Id. at 17-18.

Finally, and most

importantly, “trial counsel was able to get the statement that Mr.
36

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 37 of 49 PageID 4274

Gill gave to Ms. Shellito admitted at trial.”

Id. at 18.

In a

strikingly positive ruling for the defense, the trial court allowed
Mrs. Shellito to take the stand and testify that Gill told her he
killed the victim.
Finding neither error and/or prejudice as to trial counsel’s
failure to call and question Mr. Bennett, the investigator,11 and
Detective Hinson, the trial court denied Petitioner’s claim of
ineffective assistance of counsel, citing Strickland.
at 18).

(Doc. 13-9

As the state court reasonably determined the facts and

reasonably applied federal law to those facts in rejecting the
claim of ineffective assistance of counsel, Petitioner is not
entitled to habeas relief.
to AEDPA deference.

The state court’s ruling is entitled

The Florida Supreme Court agreed there was

no deficiency in this regard, denying the claim of ineffective
assistance of counsel at the guilt phase of the trial.

(Doc. 13-

15

call

at

11,

11

investigator,

n.5,
failure

13
to

n.8,

concerning

impeach

John

failure
Bennett

to
on

his

the

prior

inconsistent statement that suggested Gill was the shooter, and in
failure to recall Detective Hinson).

In an apparent scrivener’s error, the court referred to
counsel’s failure to call and question “Ms. Shellito,” when the
claim referenced the failure to call the investigator to reveal
what Ms. Shellito told the investigator prior to trial. (Doc. 139 at 18).
11

37

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 38 of 49 PageID 4275

The state court’s decision is not inconsistent with Supreme
Court precedent, and the state court’s adjudication of this claim
is not contrary to or an unreasonable application of Strickland or
based on an unreasonable determination of the facts.

Thus, AEDPA

deference is due, and Petitioner is not entitled to habeas relief
on this claim of ineffective assistance of counsel.
(C) Guilt Phase – Voluntary Intoxication Defense
Petitioner

claims

his

counsel

performed

deficiently

in

failing to present a voluntary intoxication defense at trial.
Petition at 27-29.

Petitioner alleges he was severely addicted

to alcohol and marijuana and he had been drinking alcohol and
smoking

marijuana

close

in

time

to

the

crime.

Id.

at

27.

Petitioner suggests his counsel could have presented this evidence
to rebut specific intent and premeditation, to show Petitioner was
too intoxicated to drive or shoot the victim, and to explain
Petitioner’s behavior at the time of his arrest and his lack of
control prior to commission of the crime.
At

the

post-conviction

evidentiary

Id. at 27-28.
hearing,

Mr.

Eler

testified he rejected the notion of presenting drug or alcohol use
as a defense, although he was aware that there had been a party or
gathering going on before and after the offense, and drugs were
being used and alcohol consumed.

(Doc. 13-6 at 130-31).

Mr. Eler

explained the theory of the defense was Mr. Gill committed the
38

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 39 of 49 PageID 4276

murder, not that Petitioner messed up and did not know what was
going on.

Id. at 132.

Mr. Eler did not want to present an

inconsistent defense of voluntary intoxication or alter his theory
of the defense, causing the jury to question the believability of
any of the stated defense.

Id.

The trial court concluded counsel’s stated tactical decision
not to present a defense of voluntary intoxication was adequately
explained by defense counsel when he said that defense would run
contrary to the defense asserted at trial (innocence) and would
have been disingenuous in the eyes of the jury.
19).

(Doc. 13-9 at

The trial court found the decision not to investigate or

pursue the intoxication defense was a tactical decision that did
not constitute ineffective assistance of counsel.

Id.

As such,

the court found Petitioner failed to satisfy the performance prong
of Strickland.

(Doc. 13-9 at 19).

Additionally, the trial court

found Petitioner failed to establish prejudice, the second prong
of Strickland.

(Doc. 13-9 at 19).

Finding neither deficient

performance nor prejudice, the trial court rejected Petitioner’s
claim.

Id.

The trial court applied the Strickland standard in addressing
Petitioner’s contention that he was deprived of his Sixth Amendment
right

to

standards.

reasonable

assistance

under

prevailing

professional

The court found counsel’s performance well within the
39

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 40 of 49 PageID 4277

broad range of reasonable assistance under prevailing professional
norms.

Given that the theory of the defense was innocence, the

presentation of a voluntary intoxication defense would have been
incompatible with the trial strategy.

Once Petitioner asserted

his innocence, an intoxication defense became a complete anathema.
The

Florida

reasonable,

Supreme
tactical

Court

agreed,

decision

finding

to

not

Mr.

Eler

pursue

a

“made

a

voluntary

intoxication defense” as an intoxication defense would have been
entirely

inconsistent

with

the

theory

Petitioner did not commit the murder.

of

the

defense

that

(Doc. 13-15 at 12).

The Court is not convinced defense counsel’s performance fell
below an objective standard of reasonableness.

Indeed, counsel’s

actions were well within the scope of permissible performance.
The standard is reasonable performance, not perfection.
913 F.3d at 1056 (citation omitted).

Brewster,

In addition, Petitioner has

failed to show resulting prejudice, the second prong of the
Strickland standard.

There is no reasonable probability that the

outcome of the case would have been different if trial counsel had
taken the action suggested by Petitioner.
Trial counsel’s representation was not so filled with serious
errors

that

guaranteed

defense
by

the

counsel
Sixth

was

not

Amendment.

functioning
The

state

determination is consistent with federal precedent.
40

as

counsel
court’s

The Court

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 41 of 49 PageID 4278

concludes AEDPA deference is warranted.

Thus, the Court finds the

state court’s adjudication of this claim is not contrary to or an
unreasonable application of Strickland or based on an unreasonable
determination of the facts.

As such, this claim is due to be

denied.
(D) Guilt Phase – “Opening the “Door” to Ms. Teresa Ritzer
Petitioner,

in

this

ground,

claims

his

counsel

was

ineffective in cross-examining Teresa Ritzer, opening the door to
highly prejudicial testimony, that is, that Petitioner threatened
her life and made admissions to her.

Petitioner at 29-32.

Mr.

Eler, at the evidentiary hearing, testified he believed, had he
not attempted to impeach Ms. Ritzer by cross-examining her about
her previous statement that she never saw or heard anything
suspicious and the changes in her story, Petitioner would have had
“a probably bigger claim” of ineffective assistance of counsel.
(Doc. 13-6 at 184-85).

After hearing counsel’s testimony, the

trial court found counsel made a tactical decision to cross-examine
Ms. Ritzer, weighing the risks entailed with doing so, and this
decision did not constitute ineffective assistance as it was not
deficient performance.

(Doc. 13-9 at 15).

The Florida Supreme Court rejected the claim of ineffective
assistance

of

counsel,

agreeing

that

defense

counsel

made

a

strategic decision to delve into this area, which in hindsight,
41

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 42 of 49 PageID 4279

opened the door to the admission of
entirely favorable to the defendant.

unexpected evidence not
(Doc. 13-15 at 12).

The

Florida Supreme Court summarily rejected the contention that trial
counsel should have moved for a hearing concerning Ritzer’s prior
statement.

Id. at 13 n.7.

Finding counsel failed to prove Mr.

Eler was ineffective during the guilt phase, the Florida Supreme
Court affirmed the trial court’s decision as to the guilt-phase
claim.

Id. at 31.

The trial court set forth the two-pronged Strickland standard
before addressing grounds for relief.

The trial court rejected

this claim of ineffectiveness after conducting an evidentiary
hearing.

The court concluded defense counsel’s performance was

not deficient.

The Florida Supreme Court affirmed the trial

court’s decision denying relief on this ground.

Upon review, the

state court's decision is not inconsistent with Supreme Court
precedent, including Stickland and its progeny.

The state court's

adjudication of this claim is not contrary to or an unreasonable
application

of

Strickland

determination of the facts.

or

based

on

an

unreasonable

As such, this claim is due to be

denied.
VIII.

GROUND THREE

GROUND THREE:
Mr. Shellito was absent from
critical stages of the trial in violation of
his Fifth, Sixth, Eighth, and Fourteenth
42

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 43 of 49 PageID 4280

Amendments to the United States Constitution.
Appellate Counsel’s failure to raise this
claim was deficient performance which denied
Mr. Shellito effective assistance of counsel
on direct appeal.
In his final ground for relief, Petitioner raises a claim of
ineffective assistance of appellate counsel.

He asserts that

appellate counsel’s performance was constitutionally deficient
because appellate counsel did not raise the issue that Petitioner
was absent from critical stages of the trial, including conferences
where defense counsel and the prosecutor argued critical issues
before the court, during the review of an alleged witness tampering
incident, and finally, the discussion of a scheduling matter before
the jury.12 Petition at 33-34.

This claim is exhausted as it was

presented in Petitioner’s state habeas petition as Claim II.
(Doc. 13-13 at 18-20).

The Florida Supreme Court addressed this

claim, noting that a defendant has a constitutional right to be
present at all crucial stages of the trial where absence might
frustrate fairness.

(Doc. 13-15 at 30).

The court opined,

however, that this right does not extend to every conference in
which matters presented in the case are discussed.

Id.

The court

concluded that Petitioner failed to demonstrate he was absent from
critical stages of his trial which might have frustrated the

The record demonstrates trial counsel did not object to these
absences.
12

43

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 44 of 49 PageID 4281

fairness of the trial.

Id. at 31.

In coming to this conclusion,

the court opined that Petitioner “could have provided no useful
input[.]”

Id.

Finding the claim meritless, the court held

appellate counsel could not be deemed ineffective for failure to
raise this meritless issue.

Id. (citation omitted).

It matters whether a defendant’s absence is during a critical
stage of the proceedings; a “defendant is guaranteed the right to
be present at any stage of the criminal proceeding that is critical
to its outcome if his presence would contribute to the fairness of
the procedure.”

Kentucky v. Stincer, 482 U.S. 730, 745 (1987).

As the Eleventh Circuit thoroughly explained:
The right to be present pursuant to the
Confrontation Clause has been referred to as
a “trial right,” and is less broad than the
right afforded by the Due Process Clause or
Rule 43. United States v. Boyd, 131 F.3d 951,
954 (11th Cir. 1997). The Supreme Court has
“emphasized that a primary interest secured by
the Confrontation Clause is the right of
cross-examination.” Kentucky v. Stincer, 482
U.S. 730, 736, 107 S. Ct. 2658, 2662, 96
L.Ed.2d 631 (1987) (citation, quotation, and
brackets omitted). Thus, this clause has the
“functional purpose [of] ensuring a defendant
an opportunity for cross-examination.” Id. at
739, 107 S. Ct. at 2664.
The Due Process Clause, on the other
hand, offers a criminal defendant a somewhat
broader right to be present. See Boyd, 131
F.3d at 954. The Supreme Court described this
right as follows:

44

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 45 of 49 PageID 4282

The Court has assumed that,
even
in
situations
where
the
defendant
is
not
actually
confronting witnesses or evidence
against him, he has a due process
right “to be present in his own
person whenever his presence has a
relation, reasonably substantial,
to the fulness of his opportunity to
defend against the charge.” ...
Although the Court has emphasized
that this privilege of presence is
not guaranteed “when presence would
be useless, or the benefit but a
shadow,” ... due process clearly
requires that a defendant be allowed
to be present “to the extent that a
fair and just hearing would be
thwarted by his absence”.... Thus,
a defendant is guaranteed the right
to be present at any stage of the
criminal
proceeding
that
is
critical to its outcome if his
presence would contribute to the
fairness of the procedure.
Stincer, 482 U.S. at 745, 107 S. Ct. at 2667
(quoting Snyder v. Massachusetts, 291 U.S. 97,
105–08, 54 S. Ct. 330, 332–33, 78 L. Ed. 674
(1934)). Similarly, this Court has stated that
“[t]he right of a criminal defendant to be
present at all critical stages of his trial is
a fundamental constitutional right.” Proffitt
v. Wainwright, 685 F.2d 1227, 1260 n. 49 (11th
Cir.1982).
United States v. Novaton, 271 F.3d 968, 997–98 (11th Cir. 2001),
cert. denied, 535 U.S. 1120 (2002).
Upon review, Petitioner’s presence at these conferences and
during scheduling discussions would have been, at most, a mere
45

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 46 of 49 PageID 4283

shadow of a benefit, or most likely, of no benefit.

See United

States v. Thomason, 940 F.3d 1166, 1172 (11th Cir. 2019) (a right
to be present at a modification of sentence only if it constitutes
a critical stage where presence contributes to fairness), cert.
denied, 140 S. Ct. 1213 (2020); In re Shriner, 735 F.2d 1236, 1241
(11th Cir. 1984) (no right to be present at bench conference
involving purely legal matters); United States v. Howell, 514 F.2d
710, 714 (5th Cir.) (in camera conferences concerning a juror
relating that he had been indirectly offered a bribe not a critical
stage in the proceedings and no concomitant right for the defendant
to be present arose), cert. denied, 423 U.S. 914 (1975).

On the

other hand, for example, a criminal defendant’s absence from a
conference may well be considered critical if it concerns the
cross-examination of witnesses put on by the government or if the
absence occurs during a time of decision-making crucial to deciding
as

to

whether

to

present

witnesses

at

trial.

In

those

circumstances, a defendant’s absence may present a reasonably
substantial concern regarding fairness and the ability to defend
against the charge.

See Novaton, 271 F.3d at 999 (finding absence

of defendant for a lengthy time during critical stages was not
harmless beyond a reasonable doubt).
Petitioner’s absence from the bench conferences involving
purely

legal

matters,

such

as
46

developing

jury

instructions,

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 47 of 49 PageID 4284

logistical decisions, and addressing the misconduct of spectators,
did not limit the fairness of the proceeding because these are not
the types of matters or stages of the proceeding that are critical
to its outcome needing the input of the Petitioner.

Defense

counsel ably handled these matters and/or participated in these
stages of the proceedings without Petitioner being present and any
benefit of his presence would have been “but a shadow.”
Any “act or omission of counsel preventing the defendant’s
presence must be prejudicial” in order to obtain post-conviction
relief.

Stagg v. Sec’y, Dep’t of Corr., No. 5:12-cv-194-RS-EMT,

2013 WL 6184058, at *15 (N.D. Fla. Nov. 26, 2013) (district court
approving

and

adopting

recommendation).

the

magistrate

judge’s

report

and

See Duckett v. McDonough, 701 F.Supp.2d 1245,

1291 (M.D. Fla. 2010) (asking whether the petitioner’s presence at
a bench conference would have ensured a more reliable determination
of the issue and finding his presence at conferences would not
have

provided

any

benefit

conferences or trial).

or

affected

the

outcome

of

the

Here, Petitioner has not demonstrated how

his presence would have enhanced the fairness of the proceedings
or how his absence diminished the fairness of the proceedings.
Appellate

counsel’s

performance

did

not

fall

below

an

objective standard of reasonableness for failure to raise the claim
that Petitioner was absent from critical stages of the trial in
47

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 48 of 49 PageID 4285

violation of his Fifth, Sixth, Eighth, and Fourteenth Amendments
to the United States Constitution.

An appellate counsel has no

duty to raise every non-frivolous issue.

As evidenced by the

Supreme

Petitioner

Court

of

Florida’s

finding

that

had

not

demonstrated he was absent from critical stages of his trial and
its overriding decision this was ultimately a meritless issue,
appellate counsel could not be deemed ineffective for failure to
raise the claim.

No unprofessional error was made.

And, even

giving Petitioner every benefit of the doubt, this claim presented
a weaker issue, an issue appellate counsel may reasonably weed
out.
Petitioner’s appellate counsel cannot be deemed ineffective
for failure to raise this matter on appeal.

Thus, Petitioner is

not entitled to habeas relief based on his claim of ineffective
assistance of appellate counsel.
Therefore, it is now
ORDERED AND ADJUDGED:
1.

The Petition for Writ of Habeas Corpus (Doc. 1) is

DENIED.
2.

This action is DISMISSED WITH PREJUDICE.

3.

The Clerk shall enter judgment accordingly and close

this case.

48

Case 3:18-cv-00868-BJD-JRK Document 17 Filed 07/31/20 Page 49 of 49 PageID 4286

4.

If Petitioner appeals the denial of his Petition for

Writ of Habeas Corpus (Doc. 1), the Court denies a certificate of
appealability. 13

Because

this

Court

has

determined

that

a

certificate of appealability is not warranted, the Clerk shall
terminate from the pending motions report any motion to proceed on
appeal

as

a

pauper

that

may

be

filed

in

this

case.

Such

termination shall serve as a denial of the motion.
DONE AND ORDERED at Jacksonville, Florida, this 30th day of
July, 2020.

sa 7/24
c:
Counsel of Record

This Court should issue a certificate of appealability only if
a petitioner makes "a substantial showing of the denial of a
constitutional right."
28 U.S.C. § 2253(c)(2).
To make this
substantial showing, Petitioner "must demonstrate that reasonable
jurists would find the district court's assessment of the
constitutional claims debatable or wrong," Tennard v. Dretke, 542
U.S. 274, 282 (2004) (quoting Slack v. McDaniel, 529 U.S. 473, 484
(2000)), or that "the issues presented were 'adequate to deserve
encouragement to proceed further,'" Miller-El v. Cockrell, 537
U.S. 322, 335-36 (2003) (quoting Barefoot v. Estelle, 463 U.S.
880, 893 n.4 (1983)).
Upon due consideration, this Court will
deny a certificate of appealability.
13

49

